Washington, D.C. 20530

March 3, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 2054
Re: Ryan R. Gilbertson v. United States of America,
S.Ct. No. 20-860
Dear Mr. Harris:
The petition for a writ of certiorari in this case was filed on December 23, 2020.
Although the government waived its right to file a response, the Court has requested that a
response be filed. The government’s response is now due on March 15, 2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including April 14, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Elizabeth B. Prelogar
Acting Solicitor General
cc: See Attached Service List

20-0860
GILBERTSON, RYAN R.
USA

KANNON K. SHANMUGAM
PAUL, WEISS, RIFKIND,WHARTON &
GARRISON LLP
2001 K STREET, NW
WASHINGTON, DC 20006
202-223-7300
KSHANMUGAM@PAULWEISS.COM

